DEPARTMENT OF HOMELAND SECURITY
   Office of Inspector General

  FY 2006 Audit of DHS’ Internal Control 

        Over Financial Reporting 





OIG-07-20                      December 2006
                                                                         OfJice oflnspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528


                                                                        Homeland 

                                                                        Security

                                      November 15,2006


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the effectiveness of DHS' internal control over financial reporting. It is based
on a review of applicable documents. We performed our review during the course of DHS' FY 2006
financial statement audit in conjunction with the independent public accountant, KPMG LLP.
KPMG was engaged to audit the Department's balance sheet as of September 30,2006 and 2005,
and the related statement of custodial activity for the year ended September 30,2006 (referred to
herein as "financial statements). KPMG was unable to provide an opinion on DHS' financial
statements as of September 30,2006 and 2005.

It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                       Inspector General
                                                                        Office rflnspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      November 15,2006


MEMORANDUM FOR:               The Honorable Michael Chertoff


FROM:                        pq&ichard L. Ski ner
                              Inspector General

                              Independent Auditors' Report on DHS' FY 2006 Internal Controls
                              over Financial Reporting

The attached report presents our independent auditors' opinion on internal controls over financial
reporting as of September 30,2006, based on the criteria established under the Federal Managers'
Financial Integrity Act (FMFIA). DHS management is responsible for establishing and maintaining
effective internal control over financial reporting. Our responsibility is to express an opinion on the
effectiveness of DHS' internal control based on our examination.

The Department of Homeland Security Financial Accountability Act (The Act) (P.L. 108-330) was
established to amend title 31 of the United States Code, to improve the financial accountability
requirements applicable to the Department of Homeland Security (DHS). The Act also amended the
Chief Financial Officers Act (CFO Act) of 1990 to include DHS as one of the federal agencies
where the Chief Financial Officer is a Presidential appointee and reports directly to the Secretary.

Section 4 of The Act requires that the Secretary of Homeland Security include an audit opinion of
the Department's internal controls over its financial reporting in each performance and
accountability report beginning after fiscal year 2005.

We appreciate the cooperation extended to the auditors by DHS' financial offices. Should you have
any questions, please call me, or your staff my contact David M. Zavada, Assistant Inspector
General for Audits, at 202-254-4100.

Attachment
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security




                                          November 15,2006



We have examined the effectiveness of DHS' internal control over financial reporting as of
September 30, 2006 based on the criteria established under the Federal Managers' Financial Integrity
Act (FMFIA). DHS management is responsible for establishing and maintaining effective internal
control over financial reporting. Our responsibility is to express an opinion on the effectiveness of
DHS' internal control based on our examination.

Our examination was conducted in accordance with U.S generally accepted government auditing
standards. It included obtai'ning an understanding of the internal control over financial reporting and
performing such other procedures as we considered necessary to render our opinion. We believe
that our examination and the report of the independent auditor provide a reasonable basis for our
opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected, Also, projections of any evaluation of the internal control over financial
reporting to future periods are subject to the risk that the internal control may change, or that the
degree of compliance with the policies or procedures may deteriorate.

During fiscal year 2006, the following reportable conditions were identified by an independent
auditor, which are considered material weaknesses.

       Financial Management Oversight (Entity Level Controls); 

       Financial Reporting; 

       Financial Systems Security; 

       Fund Balance with Treasury; 

       Property, Plant and Equipment; 

       Operating Materials and Supplies; 

       Legal and Other Liabilities; 

       Actuarial Liabilities; 

       Budgetary Accounting; and 

       Intragovernmental and Intradepartmental Balances. 


A material weakness is a condition that precludes the entity's internal control from providing
reasonable assurance that material misstatements in the financial statements will be prevented or
detected on a timely basis. Due to the issues noted above, additional material weaknesses may exist
that have not been reported.
Because of the effects of the above mentioned material weaknesses, in our opinion, DHS did not
maintain effective internal control as of September 30,2006, to meet the following objectives: (1)
transactions are properly recorded, processed, and summarized to permit the preparation of the
financial statements and stewardship information in conformity with GAAP, and assets are
safeguarded against loss from unauthorized acquisition, use, or disposition; and (2) transactions are
executed in accordance with laws governing the use of budget authority and with other significant
laws and regulations that could have a direct and material effect on the financial statements and
stewardship information. Consequently, DHS' internal control did not provide reasonable assurance
that misstatements, losses, or noncompliance material in relation to the financial statements or to
stewardship information would be prevented or detected on a timely basis.



                                    uRichardoL. Skinner(       "       k
                                      Inspector General
                                                                     U.S. Department of Homeland
                                                                     Security
                                                                     Washington, DC 20528



                                                                     Homeland 

                                                                     Security
                                     November 15,2006


MEMORANDUM FOR:              Richard L. Skinner, Inspector General

FROM: 	                      David L. Norquist, Chief Financial 0ffi@&

SUBJECT: 	                   Audit Opinion of the Department's Internal Controls over
                             Financial Reporting


Thank you for the opportunity to review your draft audit opinion of the Department's internal
controls over financial reporting. I agree with your drafi audit report's conclusions and 1am
pleased that we have implemented the audit opinion requirement of the Department of Homeland
Security Financial Accountability Act. I want to emphasize that I will continue to work with
your office to ensure that inherited material weaknesses do not become ingrained into our
operations. As we conclude the second year of implementing the Act, I appreciate our
professional relationship and your office's efforts to establish an appropriate level of ongoing
performance reporting that assesses and compliments management's corrective action efforts.
The utility of your performance audits continues to develop through our combined efforts. I look
forward to continuing this productive and successful relationship in FY 2007.
Report Distribution



   De~artmentof Homeland Securitv

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAOIOIG Liaison Office
   Assistant Secretary for Policy
   Assistant Secretary for Public Affairs
   Assistant Secretary for Legislative and Intergovernmental Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Inforination Officer
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
